App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-50719
-----------------------------------------------------------------------

MARY LOUISE SERAFINE,
Plaintiff – Appellant
v.
KARIN CRUMP, In her Individual and Official
Capacities as Presiding Judge of the 250th Civil
District Court of Travis County, Texas; DAVID
PURYEAR, In his Individual and Official Capacities
as Justice of the Third Court of Appeals at Austin,
Texas; MELISSA GOODWIN, In her Individual and
Official Capacities as Justice of the Third Court of
Appeals at Austin, Texas; BOB PEMBERTON,
In his Individual and Official Capacities as Justice
of the Third Court of Appeals at Austin, Texas,
Defendants – Appellees
-----------------------------------------------------------------------

Appeals from the United States District Court
for the Western District of Texas
USDC No. 1:17-CV-1123
-----------------------------------------------------------------------

(Filed Feb. 6, 2020)
Before OWEN, Chief Judge, and BARKSDALE and
DUNCAN, Circuit Judges.

App. 2
PER CURIAM:*
For this action filed pursuant to 42 U.S.C. § 1983,
Mary Louise Serafine, a lawyer proceeding pro se, lacks
standing to seek prospective declaratory and injunctive relief against a judge and three justices who presided over state-court proceedings in which she was a
party. DISMISSED.
I.
Serafine first appeared before Appellee Travis
County district-court Judge Crump in 2012, in her case
which alleged her neighbors: removed a chain-link
fence separating her and their properties, and replaced
it with a wooden one, which encroached upon her
property; and trespassed upon, and damaged, her
property in the course of digging a drainage system.
See Serafine v. Blunt, No. 03–16–00131–CV, 2017 WL
2224528, at *1 (Tex. App. 19 May 2017). After an appeal from the denial of a motion to dismiss various
counterclaims, “Serafine’s claims were tried to a jury in
2015, after which the jury unanimously decided
against Serafine on every claim”. Id. Following trial,
Judge Crump “determined the boundary line between
the properties, granted [a defendant’s] motion for sanctions, and rendered final judgment denying Serafine
relief on all her claims”. Id.

* Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4.

App. 3
Serafine challenged the final judgment in the Texas
Third Court of Appeals. See id. Justices Goodwin,
Pemberton, and Puryear, the other Appellees, affirmed
the final judgment, but reversed and remanded for the
limited purpose of the trial court’s determining the
amount, and then entering an award, of sanctions and
attorney’s fees to Serafine regarding defendants’ dismissed counterclaims. Id. at *8. The Texas Supreme
Court denied Serafine’s petition for discretionary review.
In this action, Serafine, proceeding pro se, filed her
operative “First Amended Complaint” in December
2017, seeking prospective declaratory and injunctive
relief against Appellees, pursuant to 42 U.S.C. § 1983
and 28 U.S.C. §§ 2201 and 2202. Serafine alleged they
repeatedly violated, and will continue to violate, her
rights by, inter alia: knowingly creating false orders,
judgments, and opinions; and acting in bad faith. She
requested the district court, inter alia: “[i]ssue a declaratory judgment [stating Appellees’] policy, practice,
and custom of denying and affirming denial of procedural due process . . . violate the Fourteenth Amendment of the U.S. Constitution”; and “[d]etermine that
[Appellees’] judicial oath[s], as a matter of law, constitute[ ] a declaratory decree to which [they] consented,
and that [their] violation of th[ose] oath[s] entitles
[her] to injunctive relief ”. (Regarding Serafine’s requested categorization of Appellees’ judicial oaths as
declaratory decrees, 42 U.S.C. § 1983 provides: “in any
action brought [pursuant to that statute] against a
judicial officer for an act or omission taken in such

App. 4
officer’s judicial capacity, injunctive relief shall not be
granted unless a declaratory decree was violated or
declaratory relief was unavailable”.)
Appellees moved to dismiss pursuant to Federal
Rules of Civil Procedure 12(b)(1) (requesting dismissal
based, inter alia, on sovereign immunity and lack of
standing) and 12(b)(6) (requesting dismissal for failure
to state a claim). A magistrate judge’s report and recommendation (R&R) recommended, inter alia, that the
action be dismissed for lack of subject-matter jurisdiction. Adopting the R&R, the district court dismissed
the action on that jurisdictional basis.
II.
“We review de novo a district court’s dismissal . . .
for lack of subject matter jurisdiction.” Richard v.
Hoechst Celanese Chem. Grp., Inc., 355 F.3d 345, 349
(5th Cir. 2003) (citation omitted). Along that line, it
goes without saying that we may sua sponte consider
Article III standing, e.g., Bauer v. Texas, 341 F.3d 352,
357 (5th Cir. 2003) (citation omitted), and similarly
may dismiss for lack of standing regardless of whether
the district court addressed that basis, e.g., Friends of
St. Frances Xavier Cabrini Church v. FEMA, 658 F.3d
460, 466 (5th Cir. 2011) (per curiam) (citation omitted).
It also goes without saying that, to establish Article III standing, a party must demonstrate a case or
controversy. Valley Forge Christian Coll. v. Ams. United
for Separation of Church & State, Inc., 454 U.S. 464,
471–76 (1982). To do so, a party must “show that he

App. 5
personally has suffered some actual or threatened injury as a result of the putatively illegal conduct of the
defendant” that “fairly can be traced to the challenged
action and is likely to be redressed by a favorable decision”. Id. at 472 (internal quotation marks and citations omitted).
“[T]he Supreme Court made clear [in City of Los
Angeles v. Lyons, 461 U.S. 95, 101–03 (1983),] that
plaintiffs may lack standing to seek prospective relief
even though they have standing to sue for damages”.
Soc’y of Separationists, Inc. v. Herman, 959 F.2d 1283,
1285 (5th Cir. 1992) (en banc). In Lyons, the Supreme
Court explained: “[p]ast exposure to illegal conduct
does not in itself show a present case or controversy
regarding injunctive relief . . . if unaccompanied by
any continuing, present adverse effects”. Lyons, 461
U.S. at 102 (alteration and omission in original) (quoting O’Shea v. Littleton, 414 U.S. 488, 495–96 (1974)).
(Although Lyons dealt with injunctive relief, this reasoning applies equally to declaratory relief. See Herman, 959 F.2d at 1285 (citations omitted).)
Along that line, our court has held: “To obtain equitable relief for past wrongs, a plaintiff must demonstrate either continuing harm or a real and immediate
threat of repeated injury in the future”. Id. To have
standing when “seeking injunctive or declaratory relief ”, plaintiff must allege: facts “from which it appears
there is a substantial likelihood that he will suffer injury in the future”, demonstrating “a substantial and
continuing controversy between two adverse parties”;
“facts from which the continuation of the dispute may

App. 6
be reasonably inferred”; and the controversy is “real
and immediate, . . . creat[ing] a definite, rather than
speculative threat of future injury”. Bauer, 341 F.3d at
358 (citations omitted).
Our court has addressed standing in the context
of an action seeking prospective relief against a statecourt judge on three occasions. See id. at 354; Herman,
959 F.2d at 1284; Adams v. McIlhany, 764 F.2d 294, 295
(5th Cir. 1985). Collectively, as discussed below, our decisions establish: a plaintiff ’s suing a state-court judge
and seeking prospective declaratory or injunctive relief
must show a significant likelihood she will encounter
the same judge in the future, under similar circumstances, with a likelihood the same complained-of
harm will recur.
In Adams, filed pursuant to 42 U.S.C. § 1983, the
state-court judge had sentenced plaintiff to 30-days’
imprisonment for contempt, after she questioned his
integrity in a letter. Adams, 764 F.2d at 295. After affirming dismissal of plaintiff ’s claim for monetary
damages on absolute-judicial-immunity grounds, id. at
297, our court addressed her claims for declaratory and
injunctive relief, which the district court had dismissed
for lack of standing, id. at 299. Because plaintiff had
been released from jail, our court held the contempt
citation and period of incarceration were insufficient to
establish the requisite case or controversy. Id. Regarding declaratory relief, our court held: “The fact that it
is most unlikely that [plaintiff ] will again come into
conflict with [the judge] in circumstances similar to
the ones presented here, and with the same results,

App. 7
precludes a finding that there was sufficient immediacy and reality here to warrant an action for declaratory relief ”. Id. (internal quotation marks and citation
omitted).
In Herman, also filed pursuant to 42 U.S.C. § 1983,
plaintiffs, including Murray-O’Hair, requested declaratory and injunctive relief and damages from numerous defendants, including two state-court judges, after
Murray-O’Hair was held in contempt for refusing, as a
prospective juror, to make an affirmation. Herman, 959
F.2d at 1284–85. Our court held she lacked standing to
obtain prospective relief, reasoning: she “suffer[ed] no
continuing harm”; she could not “show a real and immediate threat that she will again appear before [the
judge] as a prospective juror and that [the judge] will
again exclude her from jury service and jail her for
contempt”; and “[t]here are over half a million residents in Travis [C]ounty[, Texas,] and twenty trial
judges[, making] [t]he chance that [she] will be selected again for jury service and that [the judge] will
be assigned again to oversee her selection as a juror . . .
slim”. Id. at 1285. Finally, our court noted: “Even if
[she] were likely to appear before [the judge] in the future, there is little indication that they would interact
in the same fashion.” Id. at 1285–86.
In Bauer, plaintiff ’s action against a state probate
judge, filed pursuant to 42 U.S.C. § 1983, sought a declaratory judgment that a statute related to guardianship was unconstitutional. Bauer, 341 F.3d at 354. Our
court held plaintiff lacked standing because “there
d[id] not exist a ‘substantial likelihood’ and a ‘real and

App. 8
immediate’ threat that [plaintiff ] w[ould] face injury
from [defendant] in the future”. Id. at 358. Citing
Adams and Herman, our court stated it had “often held
that plaintiffs lack standing to seek prospective relief
against judges where the likelihood of future encounters is speculative”. Id. (citations omitted).
Again, taken together, these decisions establish
that, to have standing to seek prospective declaratory
or injunctive relief against a state-court judge, plaintiff
must demonstrate a substantial likelihood she will
encounter the same judge, in sufficiently similar circumstances, and with sufficiently similar results to
establish an immediate, rather than speculative,
threat of repeated injury. See Bauer, 341 F.3d at 358;
Herman, 959 F.2d at 1285–86; Adams, 764 F.2d at 299.
In her operative complaint, Serafine claims Appellees violated her Fourteenth Amendment rights by,
inter alia: “knowingly creating orders, judgments, and
opinions that made materially false statements of dispositive facts”; creating judicial documents that made
statements in bad faith; repeatedly denying or affirming denial of her rights to notice, hearings, an opportunity to defend, and to appeal; ignoring motions;
tampering with court records; and allowing incorporation of perjury. She alleges Appellees “appear[ ] to have
acted in concert”, or that Appellee Judge Crump knew
she was “protected by” the Appellee Justices. In addition, Serafine alleges these actions are “part of a pattern complained of locally by other lawyers”. Finally,
she alleges: “unless deterred[, Appellees] will continue to violate[ ] [her] rights under the Fourteenth

App. 9
Amendment”; “[b]ecause the wrongful acts of [Appellees] were repeated and egregious, they demonstrate
the necessity for . . . prospective relief ”; “[her] underlying civil matters can be expected to continue in both
courts”; and “[she] as a local attorney will appear in
[Appellees’] courts in additional matters”.
Although Serafine alleges many and varied violations, her allegations do not establish Article III
standing. Regarding her seeking prospective declaratory and injunctive relief based on potential future
litigation, two Appellees (Justices Pemberton and
Puryear) no longer serve as judges. Moreover, this
makes impossible Serafine’s again appearing before
the panel (consisting of the three appellee justices)
against which she levels charges in her operative complaint. As for Appellee Justice Goodwin, appellate panels are rotated, minimizing the chance Serafine will
appear before her; and, similarly, because there are
multiple trial judges in Travis County, Texas, there is
little chance she will appear, again, as a similarly situated party before Judge Crump. See Herman, 959 F.2d
at 1285–86; see also Tex. Gov’t Code § 22.222(b). Taken
together, these factors demonstrate there is not a substantial likelihood Serafine “will again come into conflict with [Appellees] in circumstances similar to the
ones presented here, and with the same results”. See
Adams, 764 F.2d at 299.
Concerning the 2017 state-court remand, the record does not clarify the current state of the case. But
even if it has not been resolved, the remand was solely
for the purpose of awarding Serafine sanctions and

App. 10
attorney’s fees. Serafine v. Blunt, No. 03–16–00131–CV,
2017 WL 2224528, at *8 (Tex. App. 19 May 2017). This
does not provide an opportunity to treat Serafine as
she alleges Appellees previously did. The remaining
justice in service, Justice Goodwin, of course, will not
be involved with this state district-court matter. And,
even in the unlikely event Judge Crump remains assigned to the matter following Serafine’s suing her,
there is no reasonable basis on which to assume
Serafine will be subject to the sort of alleged conduct
about which she complains. As such, Serafine has not
established for the remand that she suffers a continuing harm or a substantial likelihood of a real and immediate threat of future injury by Appellees. See
Herman, 959 F.2d at 1285–86.
III.
For the foregoing reasons, the appeal is DISMISSED.

App. 11
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
MARY LOUIS SERAFINE,
PLAINTIFF,

§
§
§
v.
§
KAREN CRUMP, IN HER IN- §
DIVIDUAL AND OFFICIAL §
CAPACITIES AS PRESIDING §
JUDGE OF THE 250TH
§
§CIVIL DISTRICT COURT
§ CAUSE NO. A-17OF TRAVIS COUNTY, TEXAS; § CV-1 123-LY
AND DAVID PURYEAR,
§
MELISSA GOODWIN, AND
§
BOB PEMBERTON, IN THEIR§
OFFICIAL CAPACITIES AS §
JUSTICES OF THE THIRD
§
COURT OF APPEAL AT
§
AUSTIN, TEXAS,
§
DEFENDANTS. §
ORDER ON REPORT AND
RECOMMENDATION
(Filed: Jul. 30, 2018)
Before the court are (1) Defendant Karin Crump’s
Motion to Dismiss Plaintiff ’s First Amended Complaint pursuant to Rule 12(b)(1) and 12(b)(6) filed January 4, 2018 (Doc. #9), Plaintiff ’s Opposition to Motion
to Dismiss of Defendant State-Court Judge Karin
Crump filed January 18, 2018 (Doc. #10), and

App. 12
Defendant Crump’s Reply filed January 25, 2018 (Doc.
#16); and (2) Third Court of Appeals Justices Melissa
Goodwin, David Puryear, and Robert Pemberton’s Motion to Dismiss Complaint on the Basis of Official,
Qualified, Eleventh Amendment and Judicial Immunity, Absence of Standing, and Request for Attorneys’
Fees in the Amount of $1,000.00 filed January 19, 2018
(Doc. #14); Plaintiff ’s Response filed February 12, 2018
(Doc. #20), Defendants’ Reply filed February 14, 2018
(Doc. #21), and Plaintiff ’s Surreply filed February 23,
2018 (Doc. #26). The motions responses, and replies
were referred to the United States Magistrate Judge
for a Report and Recommendation as to the merits pursuant to 28 U.S.C. § 636(b), Rule 72 of the Federal
Rules of Civil Procedure, and Rule 1(d) of Appendix C
of the Local Rules of the United States District Court
for the Western District of Texas.
The magistrate judge filed his Report and Recommendation on April 4, 2018 (Doc. #30), recommending
that this court grant Defendant Crump’s motion to dismiss, grant the Third Court of Appeals Justices’ motion
to dismiss and deny their request for sanctions, deny
Plaintiff ’s request for leave to amend the complaint,
and dismiss Plaintiff ’s First Amended Complaint
without prejudice for lack of subject-matter jurisdiction.
Also before the court are (1) Defendants’ Joint Motion for Reconsideration and Withdrawal of Order Setting Initial Pretrial Conference filed May 10, 2018
(Doc. #39) and Plaintiff ’s Response filed May 17, 2018
(Doc. #45); (2) Plaintiff ’s Motion for Limited

App. 13
Jurisdictional Discovery filed May 10, 2018 (Doc. #40),
Defendants’ Joint Response filed May 14, 2018 (Doc.
#42), and Plaintiff ’s Reply filed May 15, 2018 (Doc.
#43); (3) Plaintiff ’s Motion for Hearing filed May 10,
2018 (Doc. #41), Defendants’ Joint Response filed May
14, 2018 (Doc. #42), and Plaintiff ’s Reply filed May 15,
2018 (Doc. #44); (4) Plaintiff ’s Motion to Compel Rule
26 Disclosures filed May 28, 2018 (Doc. #46), Defendants’ Joint Response filed June 5, 2018 (Doc. #49), and
Plaintiff ’s Reply filed June 13, 2018 (Doc. #52); (5) Defendants’ Joint Motion to Stay Discovery Pending
Ruling on and Disposition of the Report and Recommendation of United States Magistrate Judge filed
June 5, 2018 (Doc. #49), Plaintiff ’s Response filed June
12, 2018 (Doc. #50), Defendants’ Joint Reply filed June
19, 2018 (Doc. #53), and Plaintiff ’s Surreply filed June
25, 2018 (Doc. #56); (6) Advisory to the Court by Third
Court of Appeals Justices Melissa Goodwin, David
Puryear, and Robert Pemberton filed June 27, 2018
(Doc. #57) and Plaintiff ’s Response filed June 28, 2018
(Doc. #58); (7) Plaintiff ’s Request for Oral Hearing on
Plaintiff ’s Motion to Compel Disclosures filed July 17,
2018 (Doc. #59), Fourth Amended Response to Plaintiff ’s Request for Hearing on Her Motion to Compel
and Objections to Plaintiff ’s Deposition Notice, Interrogatories, and Admissions Requests filed July 24,
2018 (Doc. #68), and Judge Karin Crump’s Response to
Plaintiff ’s Motion for Oral Hearing on Plaintiff ’s Motion to Compel Disclosures filed July 24, 2018 (Doc.
#67); and (8) Objections to Plaintiff ’s Deposition Notice
to Justice Melissa Goodwin and to Plaintiff ’s Request
for a Hearing filed July 18, 2018 (Doc. #60) and

App. 14
Plaintiff ’s Motion to Strike Defendant Goodwin’s Document 60 or Alternatively to Re-Open Briefing and Allow Plaintiff 14 Days to Respond filed July 19, 2018
(Doc. #61).
Plaintiff ’s Objections to Magistrate Judge’s Report and Recommendations were filed April 18, 2018
(Doc. #31). The Third Court of Appeals Justices’ Response to Plaintiffs’s Objections to Report and Recommendation was filed April 24, 2018 (Doc. #32).
Defendant Crump’s Response to Plaintiff ’s Objections
to the United States Magistrate Judge’s Report and
Recommendation was filed April 25, 2018 (Doc. #33). In
light of Plaintiff ’s objections, the court has undertaken
a de novo review of the entire case file and finds that
the magistrate judge’s Report and Recommendation
should be approved and accepted by the court for substantially the reasons stated therein.
Plaintiff Mary Louise Serafine challenges the
magistrate judge’s application of Fifth Circuit and U.S.
Supreme Court precedent, and argues that the magistrate judge fails to analyze the actual allegations in
her complaint. The court disagrees and concludes that
the magistrate judge has properly applied federalcourt precedent in his analysis of Serafine’s facts and
claim’s as asserted in Plaintiff ’s First Amended Complaint. Therefore,
IT IS ORDERED that Plaintiff ’s Objections to
Magistrate Judge’s Report and Recommendations
were filed April 18, 2018 (Doc. #31) are OVERRULED.

App. 15
IT IS FURTHER ORDERED that the Report
and Recommendation of the United States Magistrate
Judge (Doc. #20) is ACCEPTED AND ADOPTED by
the court for as stated herein.
IT IS FURTHER ORDERED that Defendant
Karin Crump’ s Motion to Dismiss Plaintiff ’s First
Amended Complaint pursuant to Rule 12(b)(1) and
12(b)(6) filed January 4, 2018 (Doc. #9) is GRANTED.
IT IS FURTHER ORDERED that Third Court
of Appeals Justices Melissa Goodwin, David Puryear,
and Robert Pemberton’s Motion to Dismiss Complaint
on the Basis of Official, Qualified, Eleventh Amendment and Judicial Immunity, Absence of Standing, and
Request for Attorneys’ Fees in the Amount of $1,000.00
filed January 19, 2018 (Doc. #14) is GRANTED as to
the request for dismissal for lack of subject-matter jurisdiction, and DENIED as to the request for stay and
sanctions.
IT IS FURTHER ORDERED that Plaintiff Mary
Louis Serafine’s First Amended Complaint is DISMISSED WITHOUT PREJUDICE for lack of subject-matter jurisdiction.
IT IS FURTHER ORDERED that Defendants’
Joint Motion for Reconsideration and Withdrawal of
Order Setting Initial Pretrial Conference filed May 10,
2018 (Doc. #39) is DENIED.
IT IS FURTHER ORDERED that Plaintiffs Motion for Limited Jurisdictional Discovery filed May 10,
2018 (Doc. #40) is DENIED.

App. 16
IT IS FURTHER ORDERED that Plaintiff ’s
Motion for Hearing filed May 10, 2018 (Doc. #41), Defendants’ Joint Response filed May 14, 2018 (Doc. #42)
is DENIED.
IT IS FURTHER ORDERED that Plaintiff ’s
Motion to Compel Rule 26 Disclosures filed May 28,
2018 (Doc. #46) is DENIED.
IT IS FURTHER ORDERED that Defendants’
Joint Motion to Stay Discovery Pending Ruling on and
Disposition of the Report and Recommendation of
United States Magistrate Judge filed June 5, 2018
(Doc. #49) is DENIED.
IT IS FURTHER ORDERED that Plaintiff ’s Request for Oral Hearing on Plaintiff ’s Motion to Compel
Disclosures filed July 17, 2018 (Doc. #59) is DENIED.
IT IS FINALLY ORDERED that Plaintiff ’s Motion to Strike Defendant Goodwin’s Document 60 or Alternatively to Re-Open Briefing and Allow Plaintiff 14
Days to Respond filed July 19, 2018 (Doc. #61) is DENIED.
A Final Judgment shall be rendered subsequently.
Signed this 30th day of July 2018
/s/ Lee Yeakel
LEE YEAKEL
UNITED STATES
DISTRICT JUDGE

App. 17
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
MARY LOUIS SERAFINE,
PLAINTIFF,

§
§
§
v.
§
KAREN CRUMP, IN HER IN- §
DIVIDUAL AND OFFICIAL §
CAPACITIES AS PRESIDING §
JUDGE OF THE 250TH
§
§CIVIL DISTRICT COURT
§ CAUSE NO. A-17OF TRAVIS COUNTY, TEXAS; § CV-1 123-LY
AND DAVID PURYEAR,
§
MELISSA GOODWIN, AND
§
BOB PEMBERTON, IN THEIR§
OFFICIAL CAPACITIES AS §
JUSTICES OF THE THIRD
§
COURT OF APPEAL AT
§
AUSTIN, TEXAS,
§
DEFENDANTS. §
FINAL JUDGMENT
(Filed: Jul. 30, 2018)
Before the court is the above entitled cause of action. On this date, the court rendered an order dismissing Plaintiff ’s First Amended Complaint without
prejudice for lack of subject-matter jurisdiction. Accordingly, the court renders the following Final Judgment pursuant to Federal Rule of Civil Procedure 58.

App. 18
IT IS HEREBY ORDERED that Defendants are
awarded costs.
IT IS FURTHER ORDERED that the case is
hereby CLOSED.
Signed this 30th day of July 2018.
/s/ Lee Yeakel
LEE YEAKEL
UNITED STATES
DISTRICT JUDGE

App. 19
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-50719
-----------------------------------------------------------------------

MARY LOUISE SERAFINE,
Plaintiff - Appellant
v.
KARIN CRUMP, In her Individual and Official Capacities as Presiding Judge of the 250th Civil District
Court of Travis County, Texas; DAVID PURYEAR, In
his Individual and Official Capacities as Justice of the
Third Court of Appeals at Austin, Texas; MELISSA
GOODWIN, In her Individual and Official Capacities
as Justice of the Third Court of Appeals at Austin,
Texas; BOB PEMBERTON, In his Individual and Official Capacities as Justice of the Third Court of Appeals
at Austin., Texas,
Defendants - Appellees
--------------------------------------------------------------------------------------------------------------------

Appeals from the United States District Court
for the Western District of Texas
--------------------------------------------------------------------------------------------------------------------

ON PETITION FOR REHEARING
(Filed: Mar. 17, 2020)
Before OWEN, Chief Judge, and BARKSDALE,
and DUNCAN, Circuit Judges.
PER CURIAM:

App. 20
IT IS ORDERED that the petition for rehearing is
denied.
ENTERED FOR THE COURT
/s/ Rhesa H. Barksdale
_____________________________________
UNITED STATES CIRCUIT JUDGE

App. 21
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
Mary Louise Serafine,

)
)
Plaintiff,
)
v.
)
Karin Crump, in her individual )
and official capacities as Pre- )
siding Judge of the 250th Civil )
District Court of Travis County,) Civil Action No.
) 1:17-cv-01123-LY
Texas, and David Puryear,
)
Melissa Goodwin, and Bob
Pemberton, in their individual )
and official capacities as jus- )
)
tices of the Third Court of
)
Appeals at Austin, Texas,
)
Defendants.
)
FIRST AMENDED COMPLAINT
(Filed Dec. 21, 2017)
Pursuant to Federal Rule of Civil Procedure 15,
this amendment adds three defendants, as to which
the statute of limitations has not run, and is timely
filed within 21 days of service of the original Complaint.
Plaintiff Mary Louise Serafine (“Plaintiff ”), seeking to vindicate her civil rights, and for the benefit of
all others similarly situated, files this complaint

App. 22
pursuant to 42 U.S.C. § 1983, for violations of the Fourteenth Amendment of the U.S. Constitution.
I.

Nature of Suit and Preliminary Allegations

1.

Defendants are judicial officers in the lower state
courts of Texas. In 2012, Plaintiff brought suit and
brought appeal in Defendants’ courts, seeking affirmative relief in two civil matters pertaining to
her real property and to defend against three
counterclaims. Plaintiff was largely represented
by experienced counsel (until the untimely death
during the second appeal of then-lead counsel),
but also acted as an attorney on her own behalf.

2.

Defendants repeatedly and knowingly violated,
and unless deterred will continue to violate, Plaintiff ’s rights under the Fourteenth Amendment of
the U.S. Constitution, including deprivation of
property and civil rights, without due process of
law and in denial of equal protection of the laws.

3.

Defendants accomplished the violation by knowingly creating orders, judgments, and opinions
that made materially false statements of dispositive facts—facts of which Defendants had direct,
personal, and contrary percipient knowledge because the true facts took place before Defendants
themselves.

4.

Defendants’ judicial documents otherwise repeatedly made statements that, if not wholly false,
were made in bad faith. For example, Defendant
Judge Crump denied one of Plaintiff ’s bills of exception because the exhibit was not offered “at
trial.” But she knew the document came into

App. 23
existence and the proceeding arose only weeks after trial.
5.

The examples below do not seek to re-litigate underlying substance. Rather, Plaintiff seeks the declaratory and injunction relief against state
judicial officers provided by Section 1983, as protection against future denials of due process
through adulteration of judicial documents.

6.

For example, Defendants created judicial documents falsely reporting

7.

a.

that the $10,000 monetary sanction against
Plaintiff had been heard, when Defendants
knew it had not been heard;

b.

that “findings” were made when Defendants
knew that no such “findings” were made;

c.

that Plaintiff ’s “claims” had been “dismissed,”
when Defendants knew those claims were
never dismissed;

d.

that a “motion” for sanctions against Plaintiff
had been granted, when Defendants knew
that no motion related to the order had ever
been filed or made; and

e.

that Defendants Puryear, Goodwin, and Pemberton had reviewed the “entire record” and
located there “ample evidence” for the “findings,” when Defendants knew that no such evidence existed in the record or anywhere else.

Defendants repeatedly denied or affirmed denial
of Plaintiff ’s right to procedural due process, including the right to notice, hearing, opportunity to
defend, and right to appeal before depriving

App. 24
Plaintiff of her property and right to meaningful
court process and trial by jury. All Defendants repeatedly rendered de facto denials of properly-presented motions and pleas by ignoring them,
leaving an empty record. Defendants tampered
with or affirmed tampering with court records,
such as unlawfully issuing or affirming orders to
the court reporter to remove proper exhibits, and
otherwise eliminating documents from the record.
Defendants allowed incorporation of perjury into
the record and made rulings based on it. Defendant Judge Crump engaged in ex parte communication with Plaintiff ’s opponents and issued orders
accordingly, such as eliminating most of Plaintiff ’s
trial exhibits, as to which remaining Defendants
ignored Plaintiff ’s appeal.
8.

Defendants appeared to have acted in concert; certainly Defendant Judge Crump acted so incautiously as to give the appearance of knowing she
was protected by the intermsediate court.

9.

Defendants’ actions are not isolated to this case.
They are part of a pattern complained of locally by
other lawyers. National commentators condemn
similar examples of adulterating judicial documents with materially false or misleading statements of fact because they are so hard to
remediate.

10. Defendants’ wrongful conduct lies outside their jurisdiction or discretion. Their conduct is not the result of legal mistake, incompetence, or
impairment, but is knowing malfeasance. Because
the wrongful acts of Defendants were repeated

App. 25
and egregious, they demonstrate the necessity for
the prospective relief requested here.
11. Plaintiff ’s underlying civil matters can be expected to continue in both courts. And Plaintiff as
a local attorney will appear in Defendants’ courts
in additional matters, likely against the same
counsel or parties.
12. Where, as here, the deprivation of Plaintiff ’s
rights lies ultimately in the intermediate court of
appeals, it falls to the federal courts to enforce the
Fourteenth Amendment because no other remedy
exists. The Texas Supreme Court exercises only
discretionary review of appellate cases and disavows being an “error correction” court. Unlike its
sister court, the Court of Criminal Appeals, and
unlike the U.S. Supreme Court, the Texas Supreme Court lacks statutory supervisory power
over its lower courts. The state court system therefore provides no adequate relief or protection from
this type of deprivation of civil rights. In any
event, appeal was taken from the appellate decision in the instant case and review was denied.1
13. Neither the Younger abstention nor RookerFeldman doctrine should be applied in this case.
Should the Court determine that precedent dictates that either one does apply, Plaintiff urges
that such precedent should be overruled; the law
should be changed in the interest of justice.
14. Plaintiff seeks a declaratory decree. Plaintiff urges
that Defendants have violated the judicial oath
Plaintiff is entitled to seek rehearing of the Texas Supreme
Court’s denial of review.
1

App. 26
and that such a violation amounts to violating a
prior declaratory decree. As a result, Plaintiff is
entitled to an appropriate injunction. In the alternative, if a declaratory decree is unavailable,
Plaintiff is likewise entitled to injunction.
15. As a direct result of Defendants’ wrongful conduct—and only that conduct—Plaintiff sustained
attorney disciplinary proceedings in three jurisdictions and remains under investigation after
more than two years. A proper declaratory decree
would undue this unjust harm.
II.

Jurisdiction and Venue

16. Plaintiff brings suit pursuant to the Civil Rights
Act of 1871, codified at 42 U.S.C. § 1983, and the
Declaratory Judgment Act, codified at 28 U.S.C.
§§ 2201 and 2202, for violations of the Fourteenth
Amendment to the United States Constitution.
17. This Court has jurisdiction pursuant to 28 U.S.C.
§§ 1331 and 1343(a), 28 U.S.C. §§ 2201 and 2202,
and 42 U.S.C. § 1983. Venue is proper in this District pursuant to 28 U.S.C. § 1391(b) and 28 U.S.C.
§ 124(d)(1).
III.

Parties

18. Plaintiff is a resident of Travis County, Texas and
a licensed attorney in Texas, California, New York,
and the District of Columbia.
19. Defendant Karin Crump (“Judge Crump”) at all
relevant times acted and does act under color of

App. 27
state law as the presiding judge of the 250th Civil
District Court of Travis County, a state trial court.
20. Defendants David Puryear, Melissa Goodwin, and
Bob Pemberton (collectively, the “Panel”) at all relevant times acted and do act under color of state
law as justices of the Third Court of Appeals at
Austin (the “Third Court”), an intermediate state
court of appeal.
21. On information and belief, some or all defendants
are residents of Travis County, Texas.
IV.

Factual Background

22. Virtually all of the evidence in this matter is contained in the documents and record in appellate
Case No. 03-16-00131.2 The underlying case in the
The appellate record consists of the following:
REPORTER’S RECORDS
[vol. or supp. no.].RR:[pg. no.]
CLERK’S RECORDS
CR: [pg. no.]
refers to record filed 5-9-16 (1096 pp.)
CRSuppI:[pg. no.]
refers to that filed 5-27-16 (250 pp.)
CRSuppII: [pg. no.]
refers to that filed 6-21-16 (41 pp.)
CRSuppIII:[pg. no.]* refers to that filed 7-8-16 (166 pp.)
CRSuppIV:[pg. no.] * refers to that filed 7-8-16 (31 pp.)
CRSuppEx:[pg. no.]** refers to that filed 7-21-16 (one exhibit)
CRSuppV:[pg. no.] *
refers to that filed 9-1-16 (780 pp.)
CRSuppVI:[pg. no.] ** refers to that filed 9-14-16 (77 pp.)
CRSuppVII:[pg. no.]** refers to that filed 9-14-16 (104 pp.)
*
No supplement number shown on title page.
** No title page is shown on this exhibit supplement.
REVISED REPORTER’S RECORDS
[vol. or supp. no.].RevisedRR:[pg. no.]
Defendant Crump ordered the court reporter to revise Volumes 1,
7, and 16 of the reporter’s record and remove exhibits.
2

App. 28
trial court involved Cause No. D-1-GN-13-004023
and Cause No. D-1-GN-12-001270.3
The Counts below are examples.
Count I
Entering false statements into court records.
23. All of the foregoing is incorporated herein by reference as though pled in full.
24. Defendant Panel rendered a published opinion
known as Serafine v. Blunt et al., No. 03-16-00131
(Tex. App.—Austin, May 19, 2017) (the “Opinion”).
Unlawful $10,000 Sanction Against Plaintiff
without Due Process
25. Defendant Panel affirmed Defendant Judge
Crump’s entry of a $10,000 sanction against Plaintiff. Defendant Panel’s Opinion states

Defendants in the underlying law suits are identified and
referred to as follows: “Viking Ltd.” is Viking Fence Company,
Ltd. d/b/a Viking Fence Co.
“Viking GP” is Viking GP, LLC, the general partner of Viking Ltd.
“Viking” is Viking Ltd. and Viking GP collectively.
“Lockhart” is Scott Lockhart and Austin Drainage and Foundation, LLC d/b/a Austin Drainage and Landscape Development.
“Blunts” refers to Alexander Blunt and Ashley Blunt.
“Chavarrias” refers to Salvatore Chavarria and Jennifer Chavarria, exclusive members/owners of Viking GP.
“Clanin” refers to James Clanin, claimed by Viking Ltd. to be its
“independent contractor.”
3

App. 29
a.

that there was a hearing and motion on the
sanction (“At the hearing on Viking’s motion
for sanctions. . . .”); and

b.

that Defendant Panel had reviewed the “entire record” and found “ample evidence to support the trial court’s findings and conclusions
about [Plaintiff ’s] the groundless claims.”

Op. 14.
26. These statements by Defendant Panel were and
are false. In reality, there was no motion, no hearing, and no evidence that any of Plaintiff ’s claims
were groundless, in the record or elsewhere. No
party so asserted at any time. Indeed, the very
words and concepts used by Defendant Judge
Crump to describe her “findings” simply do not appear in Viking’s motion (CR:574-580) or any motion, in the transcript of the claimed hearing
(13.RR) or any hearing, or elsewhere in the entire
record.
27. Listed below are the words and concepts Defendant Crump used in her order sanctioning Plaintiff ’s allegations: specifically that Plaintiff ’s
allegations about the Chavarrias were “vague”;
and that Plaintiff ’s allegations about their specific
unlawful business practices could not be proved,
such as those of
a.

“independent contractors,”

b.

“affiliated corporations,”

c.

“the corporate form,”

d.

“the liability shield,”

App. 30
e.

“agency,”

f.

“alter ego,”

g.

“corporate fiction,” and

h.

“a scheme.”

28. A simple word search shows that none of the above
words or concepts in quotation marks appeared in
Viking’s motion for sanctions or at the claimed
hearing. Defendants assertions are fabrication.
(Moreover, the Chavarrias had made no motion for
sanctions and had not been a party to the litigation for many months.) There is simply no overlap
between what Viking’s motion for sanctions pled
and what anyone spoke at the hearing, on the one
hand, and what the trial court alleged as its
grounds for granting the $10,000 windfall to Viking.
29. The same hearing transcript shows that there was
no notice of any hearing on sanctions, Serafine did
not testify, the Chavarrias and Clanin were not
present, they had not moved for sanctions, no witnesses were called to prove Plaintiff ’s alleged bad
faith or that the Chavarrias experienced harassment, or to meet any defendant’s burden of overcoming the presumption that pleadings are filed in
good faith. Even if Plaintiff had called herself as a
witness at the hearing, what would she have testified to? With Viking’s motion not specifying any
of the grounds that Defendant Crump later picked
as justifying the sanctions, Serafine would have
had to divine the grounds somehow in order to testify.

App. 31
30. It is important to note what Viking’s motion for
sanctions actually did allege: It claimed that
Plaintiff engaged in “abusive litigation tactics,”
“six depositions,” “numerous hearings,” “211 discovery requests,” required “disclosure of net
worth,” and advanced a “pretense.” CR:574-580.
These are the only allegations of which Serafine
could possibly have had any notice. But none of
these words appears in the sanctions Order
(CR:852-857) and none were spoken at or appear
in documents at the hearing (13.RR).
31. All Defendants were fully aware that their statements in judicial documents were false.
32. Likewise Defendant Panel falsely reported that
Plaintiff ’s “specific claims were disposed of on
summary judgment and which the trial court concluded were made in bad faith, with knowledge
that they were groundless, and for the purpose of
harassment.” Op. 14.
33. In reality, Plaintiff ’s sanctioned “claims” were not
“disposed of on summary judgment.” No summary
judgment to dismiss “claims” was moved or
granted. The Chavarrias and Viking GP filed only
an MSJ on their procedural affirmative defense of
statute of limitations—not to dismiss a single
“claim.” Indeed the identical claims against Viking
GP went forward, as Defendant Crump’s summary
judgment order shows: CR:80-81.

App. 32

34. Nothing above speaks to any “claims.” Yet Defendant Judge Crump in her later sanctions order
states that the MSJ on SOL grounds was granted
only “in part” and that Plaintiff ’s “claims” were
“dismissed with prejudice” (CR:852-857):

35. In reality, none of Plaintiff ’s claims were dismissed on the merits.

App. 33
36. Defendant Panel knowingly reported the same
falsehood in its Opinion. Op. 14.
Plaintiff ’s Formal Bill of Exceptions
37. The formal bill of exceptions provided by Texas
Rule of Appellate Procedure 33.2 provides a
method of placing into the appellate record documents and testimony excluded by the trial court.
Plaintiff and her counsel verified and timely filed
nine formal bills of exception covering Defendant
Judge Crump’s exclusion at trial of any rebuttal
by Plaintiff, most exhibits, all damages testimony
by Plaintiff, and other rulings to be appealed.
38. Defendant Panel, in a footnote, stated in its Opinion:
While Serafine filed a formal bill of exceptions
several months after trial attempting to make
an offer of proof, the trial court refused her bill
of exceptions, and Serafine does not appeal
such refusal. See Tex. R. App. P. 33.2. Therefore, her bill of exceptions and its offer of proof
contained therein present nothing for our review. [citation omitted]
Op. 19, n. 8.
39. This statement was materially false and misleading. In reality, Plaintiff had twice properly appealed the denial by motion as case law provides
for this specific matter—the second motion alternatively speaking as a mandamus petition. Plaintiff ’s opponents fully joined issue. Many hundreds
of pages of briefing ensued. Defendant Panel then

App. 34
denied or dismissed both motions or the petition
in writing.
40. Defendant Panel knew or had to know its statement in footnote 8 was false.
41. This decision by Defendant Panel effected a denial
of the right to appeal the sham trial. It also automatically placed into the record Defendant
Crump’s alternative “Judge’s Bill of Exceptions”
(signed 7/28/2016), which—not arguing here its errors—imported other materially false statements
into the record and, most tellingly, eliminated
the evidence from the formal bills..
42. For example, Defendant Crump’s “Judge’s Bill”
claimed that “Serafine requested to offer the entirety of Plaintiffs Exhibit 106 (a 280-page document) into the record for no specific purpose.” In
reality, Plaintiff ’s counsel Mr. Bass offered the exhibit for the purpose of the bill of exception or offer
of proof, and then and there Defendant Crump approved it for that purpose, later reneging.
43. In another example, in July 2016 Defendant Judge
Crump signed an order claiming that she had filed
in the clerk’s record all her written orders that
should have been filed. In reality, Defendant
Crump had refused to file a critically important
pretrial evidentiary order and ignored multiple
motions by Plaintiff attempting to have it filed. See
CR:940-1036, CR:1037-1048. Two justices of Defendant Panel later dismissed in a written order
Plaintiff ’s motion to place the order in the appellate record.

App. 35
44. Defendants followed a pattern and practice of denial of due process and right to appeal by knowingly making false statements in judicial
documents.
Count II
Denials of mandatory or statutory hearings.
45. All of the foregoing is incorporated herein by reference as though pled in full.
46. Defendant Panel ratified or refused to review
many denials of the opportunity to be heard and
the denial of due process, by relying on various
pretexts and false statements—for example that
Plaintiff “waived” the lack of a hearing on the
boundary by not attempting to present evidence
about the boundary, when Defendant Panel knew
that Plaintiff had made such attempt and Defendant Crump explicitly rejected it saying she would
take no evidence.
47. Defendant Panel had full knowledge of this but affirmed the denial of all hearings on various pretexts, thereby signaling to the trial courts a high
tolerance for disregard of the opportunity to be
heard.
48. Defendant Judge Crump was required by law to
hold a hearing prior to entering against Plaintiff
(a) the large money sanction, (b) the evidentiary
sanction excluding most of Plaintiff ’s trial exhibits, (c) the expungement of Plaintiff ’s lis pendens
notice, (d) the setting of the boundary, and (e) the
initial refusal of Plaintiff ’s formal bill of exceptions, among other matters.

App. 36
49. These mandatory or even statutory requirements
for hearings were ignored by Defendant Judge
Crump, along with proper motions requesting relief.
Count III
Other Denials of Procedural Due Process
Refusals to rule
50. All of the foregoing is incorporated herein by reference as though pled in full.
51. All Defendants refused to rule on properly-presented motions and arguments. Defendant Panel
refused to opine on the briefed and even undisputed fact that none of the “findings” on which Defendant Crump imposed the $10,000 sanction
against Plaintiff was sanctionable conduct.
Whether it was is immaterial here. But repeated
refusals to rule are contrary to due process.
52. Defendant Judge Crump was required to but refused to rule on Plaintiff ’s written objections to
trial evidence; on Plaintiff ’s motion for the promised hearing on the boundary before setting it; on
Plaintiff ’s motion to vacate Defendant Crump’s
unlawful expungement of lis pendens without the
statutory hearing, 20-day notice, or motion required by Prop. Code 12.0071(d). CR:838-851. Defendant Judge Crump even ordered the Blunts to
file a response, which they did. CR:858-61. Plaintiff sought a ruling on the motion, CR:1032-1036,
but Defendant Crump ignored it.
53. There is perhaps some discretion not to rule, certainly by tradition. This conduct is outside the

App. 37
bounds. There is no discretion to refuse to rule virtually always on critical matters to one party’s detriment.
Inducing detrimental reliance by false promises, as to Defendant Judge Crump
54. All of the foregoing is incorporated herein by reference as though pled in full.
55. While judicial discretion is wide, it does not encompass chicanery.
56. Defendant Judge Crump announces and has announced instructions and rulings on which Plaintiff and/or her counsel relied or do rely, and
Defendant Crump then reneges on those instructions and rulings, depriving Plaintiff of her rights.
57. On December 3, 2015 Defendant Crump entered a
judgment as to which she had earlier announced—
on November 10, 2015—that all parties would
have a 10-day window in which to submit briefing,
evidence, and “proposed judgments.” This caused
Plaintiff to refrain from further objection. Instead,
Defendant Crump ignored the announced 10-day
deadline and entered written orders after only 72
hours. The substance of those orders is immaterial
here. But Defendant Crump repeatedly announced rulings and deadlines and reneged only
to Plaintiff ’s detriment, ignoring motions to correct.
58. Near the end of trial Defendant Crump induced
Plaintiff to agree to submitting the undetermined
boundary question to Defendant Crump, by promising there would be a hearing on the matter. In

App. 38
reality, Defendant Crump did not hold a hearing
(within any meaning of that word). In any case, at
the start of the only post-trial hearing that was
held on any matter, Defendant Crump announced
she had already decided the boundary anyway.
There had been no motion, no briefing, no argument, and no claim by Plaintiff ’s opponents for
any particular boundary.
59. During trial Defendant Judge Crump induced
Plaintiff ’s counsel to believe he would be allowed
to present rebuttal and could also recall Plaintiff
to the stand a second time during Plaintiff ’s case
in chief. Instead, Defendant Crump reneged. Posttrial motions that would have corrected this were
ignored by Defendant Crump.
V.

Prayer

Plaintiff prays that the Court will:
1.

Assume jurisdiction over this matter;

2.

Issue a declaratory judgment that sets forth, as a
matter of law, that Defendants’ policy, practice,
and custom of denying and affirming denial of procedural due process—including denial of meaningful notice, hearing, and appeal, creation of judicial
documents containing false statements of fact and
bad faith rulings, tampering with the record, engaging in ex parte communication, and other conduct according to proof—violate the Fourteenth
Amendment of the U.S. Constitution, including the
Due Process and/or Equal Protection Clauses.

3.

Determine that Defendants’ judicial oath, as a
matter of law, constitutes a declaratory decree to

App. 39
which Defendant consented, and that Defendants’
violation of that oath entitles Plaintiff to injunctive relief consistent with any declaratory relief;
4.

Grant Plaintiff her costs and attorneys’ fees to the
extent allowed by law; and

5.

Grant such other and further relief as the Court
determines is just and proper.

Respectfully submitted,
/s/ M.L. Serafine
Mary Louise Serafine, State Bar No. 24048301
Mary Louise Serafine, Attorney & Counselor at Law
P.O. Box 4342, Austin, Texas 78765
Tel: 512-220-5452
Email: mlserafine@gmail.com
Attorney for Plaintiff
Proof of Service
Pursuant to Federal Rule of Civil Procedure 5(a) and
(b) and Local Rule CV-5, the foregoing document has
been filed and simultaneously served through the
Court’s electronic filing system on the counsel below on
this the 21st day of December, 2017.
Anthony J. Nelson, Esq.
OFFICE OF DAVID A. ESCAMILLA
TRAVIS COUNTY ATTORNEY
P. O. Box 1748
Austin, Texas 78767
(512) 854-9415
(512) 854-4808 FAX
Attorneys for Defendant the Honorable Karin
Crump

App. 40
The remaining three defendants added by this amendment have not yet been served with summons, or with
requests for waiver of summons, but will be so served
promptly after the Holidays and through their counsel,
if known.
/s/ M.L. Serafine
Mary Louise Serafine, State Bar No. 24048301
Mary Louise Serafine, Attorney & Counselor at Law
P.O. Box 4342, Austin, Texas 78765
Tel: 512-220-5452
Email: mlserafine@gmail.com
Attorney for Plaintiff

App. 41
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
Mary Louise Serafine,
Plaintiff,
v.
Karin Crump, in her individual and official capacities as
Presiding Judge of the 250th
Civil District Court of Travis
County, Texas, and David
Puryear, Melissa Goodwin,
and Bob Pemberton, in their
individual and official capacities as justices of the Third
Court of Appeals at Austin,
Texas,
Defendants.

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

Civil Action No.
1: 17-cv-01123-LY

SECOND AMENDED COMPLAINT
(Filed Aug. 28, 2018)
Plaintiff Mary Louise Serafine (“Plaintiff ”), seeking to vindicate her civil rights, and for the benefit of
all others similarly situated, files this complaint pursuant to 42 U.S.C. §1983, for violations of the Fourteenth Amendment of the U.S. Constitution. The
original complaint (Doc. 1) was filed on November 28,
2017.

App. 42
I.

Nature of Suit

This suit seeks to enforce against defendant
judges—in a proceeding still in progress in Texas
state courts—the rights of due process promised by the
Fourteenth Amendment, including notice, the right to
be heard before a neutral arbiter, the right to appeal,
the right to put on evidence, and the right to adjudications based on stare decisis, to public rather than ex
parte proceedings, and to have an accurate record of
proceedings, among features of fundamental fairness.
Defendant judges here fail to comply with even the
most minimal requirements of due process, and that
failure is deliberate, consistent, coordinated, and extreme. As detailed below, they have conducted sham
proceedings in which they have already determined
the outcome; they act without reference to evidence or
law. It is not easy to accomplish this and still create
orders, opinions, and other court documents that at
least by tradition are expected to recite evidence, facts,
procedural history, and law. Thus, aggravating the
mere deprivation of notice, hearing, and other requirements of due process, Defendants here wrote and filed
court documents in which they knowingly made false
and bad faith statements; they fabricated events and
facts, they ignored or disavowed actual events and
facts; and they tampered with the record. Defendants
will continue unless stopped. Plaintiff claims the protection of Section 1983, which provides a “proceeding
for redress” on a claim of “deprivation of rights”
“against a judicial officer” who acted in his “judicial

App. 43
capacity.”1 Plaintiff seeks only prospective declaratory
and injunctive relief. Plaintiff does not seek money
damages; does not seek a declaration or injunction to
vacate a state judgment; does not seek to stay a proceeding or any enforcement; does not seek to discipline
or remove a judge; does not sue the state, the county,
or a court; and does not claim that a state judge enforced an unconstitutional statute.
II.
1.

Preliminary Allegations

Defendants are judicial officers in the lower state
courts of Texas. In 2012, Plaintiff brought suit
and brought appeal in Defendants’ courts, seeking affirmative relief in two civil matters pertaining to her real property and to defend against
three counterclaims. Plaintiff was largely represented by experienced counsel (until the untimely
death during the second appeal of then-lead

In relevant part, Section 1983 provides:
Every person who, under color of any statute . . . of any
State . . . subjects, or causes to be subjected, any citizen
of the United States . . . to the deprivation of any
rights, privileges, or immunities secured by the Constitution . . . shall be liable to the party injured in an action at law, suit in equity, or other proper proceeding
for redress, except that in any action brought
against a judicial officer for an act or omission
taken in such officer’s judicial capacity, injunctive relief shall not be granted unless a declaratory decree was violated or declaratory relief was
unavailable.
42 U.S.C. §1983 (1996) (emphases added).
1

App. 44
counsel), but also acted as an attorney on her own
behalf.
2.

Defendants repeatedly and knowingly violated,
and unless deterred will continue to violate,
Plaintiff ’s rights under the Fourteenth Amendment of the U.S. Constitution, including deprivation of property and civil rights, without due
process of law and in denial of equal protection of
the laws.

3.

Defendants accomplished the violations and
camouflaged them by creating orders, judgments, and opinions that made materially false
statements of dispositive facts—facts of which
Defendants had direct, personal, and contrary
percipient knowledge because the true facts took
place before Defendants themselves.

4.

Defendants’ judicial documents otherwise repeatedly made statements that, if not wholly
false, were made in bad faith. For example, Defendant Judge Crump denied one of Plaintiff ’s
bills of exception because the exhibit was not offered “at trial.” But she knew the document came
into existence and the proceeding arose only
weeks after trial.

5.

The examples below do not seek to re-litigate underlying substance. Rather, Plaintiff seeks the
declaratory and injunction relief against state
judicial officers provided by Section 1983, as protection against future denials of due process
through adulteration of judicial documents.

6.

For example, Defendants created judicial documents falsely reporting

App. 45

7.

1.

that the $10,000 monetary sanction against
Plaintiff had been heard, when Defendants
knew it had not been heard;

2.

that “findings” were made when Defendants
knew that no such “findings” were made;

3.

that Plaintiff ’s “claims” had been “dismissed,” when Defendants knew those
claims were never dismissed;

4.

that a “motion” for sanctions against Plaintiff had been granted, when Defendants
knew that no motion related to the order had
ever been filed or made; and

5.

that Defendants Puryear, Goodwin, and
Pemberton had reviewed the “entire record”
and located there “ample evidence” for the
“findings,” when Defendants knew that no
such evidence existed in the record or anywhere else.

Defendants repeatedly denied or affirmed denial
of Plaintiff ’s right to procedural due process, including the right to notice, hearing, opportunity
to defend, and right to appeal before depriving
Plaintiff of her property and right to meaningful
court process and trial by jury. All Defendants
repeatedly rendered de facto denials of properlypresented motions and pleas by ignoring them,
leaving an empty record. Defendants tampered
with or affirmed tampering with court records,
such as unlawfully issuing or affirming orders to
the court reporter to remove proper exhibits, and
otherwise eliminating documents or delaying
their entry into the appellate record. The clerk

App. 46
needed Judge Crump’s permission to release a
particular exhibit but was refused. Defendants
allowed incorporation of perjury into the record
and made rulings based on it. Defendant Judge
Crump engaged in ex parte communication with
Plaintiff ’s opponents and issued orders accordingly, such as eliminating most of Plaintiff ’s trial
exhibits, as to which remaining Defendants ignored Plaintiff ’s appeal.
8.

Defendants appeared to have acted in concert;
certainly Defendant Judge Crump acted so incautiously as to give the appearance of knowing
she was protected by the intermsediate court.

9.

Defendants’ actions are not isolated to this case.
They are part of a pattern complained of locally
by other lawyers. National commentators condemn similar examples of adulterating judicial
documents with materially false or misleading
statements of fact because they are so hard to remediate.

10.

Defendants’ wrongful conduct lies outside their
jurisdiction or discretion. Their conduct is not
the result of legal mistake, incompetence, or impairment, but is knowing malfeasance. Because
the wrongful acts of Defendants were not isolated, random, or minor events, but were repeated and egregious, they demonstrate the
necessity for the prospective relief requested
here.
1.

Prospective relief is needed because Plaintiff ’s state-court case is on remand. Of necessity there will be hearings and discovery as
part of the adjudication of the SLAPP

App. 47
damages on remand that are due to Plaintiff.
These should approach $100,000 or more, including sanctions to which Plaintiff is already entitled but which Defendant Judge
Crump refused to award. There would be little point for Plaintiff—or any other litigant
in a similar situation—to bring important
proceedings before Defendants here, or the
judges with whom the evidence shows they
collaborate, when these Defendants have already worked at length to deprive Plaintiff of
the opportunity to present evidence and to
have an accurate record and truthful orders
and opinions.
2.

On remand there will also be collection proceedings and any appeals to which Plaintiff
or another party is entitled.

3.

The favored party in the state-court case has
already made unlawful collection demands
on Plaintiff, clearly counting on the same
sham proceedings in their favor in the future
that they enjoyed in the past.

11.

Plaintiff ’s underlying civil matters can be expected to continue in both state courts, trial and
appellate. Plaintiff as a local attorney will appear
in Defendants’ courts in additional matters.

12.

The Texas Supreme Court exercises only discretionary review of appellate cases and disavows
being an “error correction” court. Unlike its sister
court, the Court of Criminal Appeals, and unlike
the U.S. Supreme Court, the Texas Supreme
Court lacks statutory supervisory power over its
lower courts. The state court system therefore

App. 48
provides no adequate relief or protection from
this type of deprivation of civil rights. In any
event, appeal was taken from the appellate decision in the instant case and review by the Texas
Supreme Court was denied. On February 16,
2018—almost 12 weeks after the filing of this
case on November 28, 2017—the Texas Supreme
Court denied rehearing of Plaintiff ’s petition for
review.
13.

Neither the Younger abstention nor RookerFeldman doctrine should be applied in this case.
Should the Court determine that precedent dictates that either one does apply, Plaintiff urges
that such precedent should be overruled; the law
should be changed in the interest of justice.

14.

Plaintiff seeks a declaratory decree. Plaintiff is
also entitled to injunction because a declaratory
decree was unavailable, and remains unavailable, in the state court action. This so because
Defendants herein were not parties in the state
court action; they were the adjudicators of that
action and thus could not be made parties. None
of the claims or counterclaims in the state court
action concerned conduct by Defendants here.
Even if a declaratory decree had been available
procedurally—which it was not—Plaintiff could
not possibly have anticipated Defendants’ due
process violations until after they had occurred.
Plaintiff is also entitled to injunction because Defendants have violated a prior declaratory decree,
that is, the judicial oath.

15.

As a direct result of Defendants’ wrongful conduct—and only that conduct—Plaintiff sustained

App. 49
attorney disciplinary proceedings in three jurisdictions, which continued over a two-and-a-half
year period. Eventually all three jurisdictions—
California, New York, and the District of Columbia—after independent investigations, completely exonerated Plaintiff, found no wrongdoing on Plaintiff ’s part, and closed their proceedings.
II.

Jurisdiction and Venue

16.

Plaintiff brings suit pursuant to the Civil Rights
Act of 1871, codified at 42 U.S.C. § 1983, and the
Declaratory Judgment Act, codified at 28 U.S.C.
§§ 2201 and 2202, for violations of the Fourteenth
Amendment to the United States Constitution.

17.

This Court has jurisdiction pursuant to 28 U.S.C.
§§ 1331 and 1343(a), 28 U.S.C. §§ 2201 and 2202,
and 42 U.S.C. § 1983. Venue is proper in this District pursuant to 28 U.S.C. § 1391(b) and 28
U.S.C. § 124(d)(1).
III.

Parties

18.

Plaintiff is a resident of Travis County, Texas and
a licensed attorney in Texas, California, New
York, and the District of Columbia.

19.

Defendant Karin Crump (“Judge Crump”) at all
relevant times acted and does act under color of
state law as the presiding judge of the 250th Civil
District Court of Travis County, a state trial
court.

App. 50
20.

Defendants David Puryear, Melissa Goodwin,
and Bob Pemberton (collectively, the “Panel”) at
all relevant times acted and do act under color of
state law as justices of the Third Court of Appeals
at Austin (the “Third Court”), an intermediate
state court of appeal.

21.

On information and belief, some or all defendants
are residents of Travis County, Texas.
IV.

22.

Factual Background

Virtually all of the evidence in this matter is contained in the documents and record in appellate
Case No. 03-16-00131.2 The underlying case in

The appellate record consists of the following:
REPORTER’S RECORDS
[vol. or supp. no.].RR:[pg. no.]
2

CLERK’S RECORDS
CR: [pg. no.]
refers to record filed 5-9-16 (1096 pp.)
CRSuppI:[pg. no.]
refers to that filed 5-27-16 (250 pp.)
CRSuppII: [pg. no.]
refers to that filed 6-21-16 (41 pp.)
CRSuppIII:[pg. no.]*
refers to that filed 7-8-16 (166 pp.)
CRSuppIV:[pg. no.]*
refers to that filed 7-8-16 (31 pp.)
CRSuppEx: [pg. no.]** refers to that filed 7-21-16 (one exhibit)
CRSuppV:[pg. no.]*
refers to that filed 9-1-16 (780 pp.)
CRSuppVI:[pg. no.]**
refers to that filed 9-14-16 (77 pp.)
CRSuppVII:[pg. no.]** refers to that filed 9-14-16 (104 pp.)
*No supplement number shown on title page.
**No title page is shown on this exhibit supplement.
REVISED REPORTER’S RECORDS
[vol. or supp. no.].RevisedRR:[pg. no.]
Defendant Crump ordered the court reporter to revise Volumes 1,
7, and 16 of the reporter’s record and remove exhibits.

App. 51
the trial court involved Cause No. D-1-GN-13004023 and Cause No. D-1-GN-12-001270. No
Defendant in this action was a defendant in the
aforementioned cases.
1.

The above-mentioned case and causes, including but not limited to all proceedings
growing out of that case and causes, such as
the remand, are sometimes referred to
herein collectively as the “state court action.”

The Counts below are examples.
Count I
Entering false statements into court records.
23.

All of the foregoing is incorporated herein by reference as though pled in full.

24.

Defendant Panel rendered a published opinion
known as Serafine v. Blunt et al., No. 03-16-00131
(Tex. App.—Austin, May 19, 2017) (the “Opinion”).

$10, 000 Sanction Against Plaintiff Without Due
Process
25.

Defendant Panel affirmed Defendant Judge
Crump’s entry of a $10,000 sanction against
Plaintiff. Defendant Panel’s Opinion states
1.

that there was a hearing and motion on the
sanction (“At the hearing on Viking’s motion
for sanctions. . . .”); and

2.

that Defendant Panel had reviewed the
“entire record” and found “ample evidence

App. 52
to support the trial court’s findings and conclusions about [Plaintiff ’s] the groundless
claims.”
Op. 14.
26.

These statements by Defendant Panel were and
are false. In reality, there was no motion, no hearing, and no evidence that any of Plaintiff ’s claims
were groundless, in the record or elsewhere. No
party so asserted at any time. Indeed, the very
words and concepts used by Defendant Judge
Crump to describe her “findings” simply do not
appear in Viking’s motion (CR:574-580) or any
motion, in the transcript of the claimed hearing
(13.RR) or any hearing, or elsewhere in the entire
record.

27.

Listed below are the words and concepts Defendant Crump used in her order sanctioning Plaintiff ’s allegations: specifically that Plaintiff ’s
allegations about the Chavarrias were “vague”;
and that Plaintiff ’s allegations about their specific unlawful business practices could not be
proved, such as those of
1.
2.
3.
4.
5.
6.
7.
8.

28.

“independent contractors,”
“affiliated corporations,”
“the corporate form,”
“the liability shield,”
“agency,”
“alter ego,”
“corporate fiction,” and
“a scheme.”

A simple word search shows that none of the
above words or concepts in quotation marks

App. 53
appeared in Viking’s motion for sanctions or at
the claimed hearing. Defendants assertions are
fabrication. (Moreover, the Chavarrias had made
no motion for sanctions and had not been a party
to the litigation for many months.) There is
simply no overlap between what Viking’s motion
for sanctions pled and what anyone spoke at the
hearing, on the one hand, and what the trial court
alleged as its grounds for granting the $10,000
windfall to Viking.
29.

The same hearing transcript shows that there was
no notice of any hearing on sanctions, Serafine
did not testify, the Chavarrias and Clanin were
not present, they had not moved for sanctions, no
witnesses were called to prove Plaintiff ’s alleged
bad faith or that the Chavarrias experienced harassment, or to meet any defendant’s burden of
overcoming the presumption that pleadings are
filed in good faith. Even if Plaintiff had called
herself as a witness at the hearing, what would
she have testified to? With Viking’s motion not
specifying any of the grounds that Defendant
Crump later picked as justifying the sanctions,
Serafine would have had to divine the grounds
somehow in order to testify.

30.

It is important to note what Viking’s motion for
sanctions actually did allege: It claimed that
Plaintiff engaged in “abusive litigation tactics,”
“six depositions,” “numerous hearings,” “211 discovery requests,” required “disclosure of net
worth,” and advanced a “pretense.” CR:574-580.
These are the only allegations of which Serafine
could possibly have had any notice. But none of
these words appears in the sanctions Order

App. 54
(CR:852-857) and none were spoken at or appear
in documents at the hearing (13.RR).
31.

All Defendants were fully aware that their statements in judicial documents were false.

32.

Likewise Defendant Panel falsely reported that
Plaintiff ’s “specific claims were disposed of on
summary judgment and which the trial court
concluded were made in bad faith, with
knowledge that they were groundless, and for the
purpose of harassment.” Op. 14.

33.

In reality, Plaintiff ’s sanctioned “claims” were not
“disposed of on summary judgment.” No summary judgment to dismiss “claims” was moved or
granted. The Chavarrias and Viking GP filed only
an MSJ on their procedural affirmative defense
of statute of limitations—not to dismiss a single
“claim.” Indeed the identical claims against Viking GP went forward, as Defendant Crump’s
summary judgment order shows: CR:80-81.

App. 55

34.

Nothing above speaks to any “claims.” Yet Defendant Judge Crump in her later sanctions order states that the MSJ on SOL grounds was
granted only “in part” and that Plaintiff ’s
“claims” were “dismissed with prejudice”
(CR:852-857):

35.

In reality, none of Plaintiff ’s claims were dismissed on the merits.

App. 56
36.

Defendant Panel knowingly reported the same
falsehood in its Opinion. Op. 14.

Plaintiff ’s Formal Bill of Exceptions
37.

The formal bill of exceptions provided by Texas
Rule of Appellate Procedure 33.2 provides a
method of placing into the appellate record documents and testimony excluded by the trial court.
Plaintiff and her counsel verified and timely filed
nine formal bills of exception covering Defendant
Judge Crump’s exclusion at trial of any rebuttal
by Plaintiff, most exhibits, all damages testimony
by Plaintiff, and other rulings to be appealed.

38.

Defendant Panel, in a footnote, stated in its Opinion:
While Serafine filed a formal bill of exceptions
several months after trial attempting to make an
offer of proof, the trial court refused her bill of exceptions, and Serafine does not appeal such refusal. See Tex. R. App. P. 33.2. Therefore, her bill
of exceptions and its offer of proof contained
therein present nothing for our review. [citation
omitted]

Op. 19, n. 8.
39.

This statement was materially false and misleading. In reality, Plaintiff had twice properly appealed the denial by motion as case law provides
for this specific matter—the second motion alternatively speaking as a mandamus petition.
Plaintiff ’s opponents fully joined issue. Many
hundreds of pages of briefing ensued. Defendant

App. 57
Panel then denied or dismissed both motions or
the petition in writing.
40.

Defendant Panel knew or had to know its statement in footnote 8 was false.

41.

This decision by Defendant Panel effected a denial of the right to appeal the sham trial. It also
automatically placed into the record Defendant
Crump’s alternative “Judge’s Bill of Exceptions”
(signed 7/28/2016), which—not arguing here its
errors—imported other materially false statements into the record and, most tellingly, eliminated the evidence from the formal bills..

42.

For example, Defendant Crump’s “Judge’s Bill”
claimed that “Serafine requested to offer the entirety of Plaintiffs Exhibit 106 (a 280-page document) into the record for no specific purpose.” In
reality, Plaintiff ’s counsel Mr. Bass offered the
exhibit for the purpose of the bill of exception or
offer of proof, and then and there Defendant
Crump approved it for that purpose, later reneging.

43.

In another example, in July 2016 Defendant
Judge Crump signed an order claiming that she
had filed in the clerk’s record all her written orders that should have been filed. In reality, Defendant Crump had refused to file a critically
important pretrial evidentiary order and ignored
multiple motions by Plaintiff attempting to have
it filed. See CR:940-1036, CR:1037-1048. Two
justices of Defendant Panel later dismissed in a
written order Plaintiff ’s motion to place the order
in the appellate record.

App. 58
44.

Defendants followed a pattern and practice of denial of due process and right to appeal by knowingly making false statements in judicial
documents.

Count II
Denials of mandatory or statutory hearings.
45.

All of the foregoing is incorporated herein by reference as though pled in full.

46.

Defendant Panel ratified or refused to review
many denials of the opportunity to be heard and
the denial of due process, by relying on various
pretexts and false statements—for example that
Plaintiff “waived” the lack of a hearing on the
boundary by not attempting to present evidence
about the boundary, when Defendant Panel knew
that Plaintiff had made such attempt and Defendant Crump explicitly rejected it saying she
would take no evidence.

47.

Defendant Panel had full knowledge of this but
affirmed the denial of all hearings on various pretexts, thereby signaling to the trial courts a high
tolerance for disregard of the opportunity to be
heard.

48.

Defendant Judge Crump was required by law to
hold a hearing prior to entering against Plaintiff
(a) the large money sanction, (b) the evidentiary
sanction excluding most of Plaintiff ’s trial exhibits, (c) the expungement of Plaintiff ’s lis pendens
notice, (d) the setting of the boundary, and (e) the
initial refusal of Plaintiff ’s formal bill of exceptions, among other matters.

App. 59
49.

These mandatory or even statutory requirements
for hearings were ignored by Defendant Judge
Crump, along with proper motions requesting relief.
Count III
Other Denials of Procedural Due Process

Refusals to rule
50.

All of the foregoing is incorporated herein by reference as though pled in full.

51.

All Defendants refused to rule on properly-presented motions and arguments. Defendant Panel
refused to opine on the briefed and even undisputed fact that none of the “findings” on which
Defendant Crump imposed the $10,000 sanction
against Plaintiff was sanctionable conduct.
Whether it was is immaterial here. But repeated
refusals to rule are contrary to due process.

52.

Defendant Judge Crump was required to but refused to rule on Plaintiff ’s written objections to
trial evidence; on Plaintiff ’s motion for the promised hearing on the boundary before setting it; on
Plaintiff ’s motion to vacate Defendant Crump’s
unlawful expungement of lis pendens without the
statutory hearing, 20-day notice, or motion required by Prop. Code 12.0071(d). CR:838-851. Defendant Judge Crump even ordered the Blunts to
file a response, which they did. CR:858-61. Plaintiff sought a ruling on the motion, CR:1032-1036,
but Defendant Crump ignored it.

53.

There is perhaps some discretion not to rule, certainly by tradition. This conduct is outside the

App. 60
bounds. There is no discretion to refuse to rule
virtually always on critical matters to one party’s
detriment.
Inducing detrimental reliance by false promises
54.

All of the foregoing is incorporated herein by reference as though pled in full.

55.

While judicial discretion is wide, it does not encompass chicanery.

56.

Defendant Judge Crump announces and has
announced instructions and rulings on which
Plaintiff and/or her counsel relied or do rely, and
Defendant Crump then reneges on those instructions and rulings, depriving Plaintiff of her
rights.

57.

Judge Crump’s actions to induce detrimental reliance are knowing, deliberate, and intentional.
To give an example: At a hearing on November
10, 2015 Defendant Judge Crump announced a
10-day window for submitting to her the parties’
briefing, evidence, affidavits, and proposed judgments on the ultimate and highly contentious issues that deprived Plaintiff of significant land
and money. Judge Crump’s announcement of at
least some chance to submit—as she said specifically—“briefing,” “evidence,” “affidavits,” and a
“proposed final judgment”—caused Plaintiff to
refrain from further objection. Judge Crump
announced this 10-day deadline at a hearing
on November 10th, thus yielding a deadline of
November 20th. From the court reporter’s transcript for that hearing, here is Judge Crump

App. 61
confirming the November 20th deadline four separate times, reiterating that it was for “briefing,”
“evidence,” “affidavits,” and a “proposed final
judgment.” Indeed she further asked for and obtained the parties’ agreement to November 20th
as the deadline date: (emphases and brackets
added)
THE COURT: This . . . briefing will
be all that I will consider, the briefing
provided to the Court on or before
November the – the 20th. So if you
are seeking something that requires
evidence, then you’ll need to submit
it by affidavit. 13.RR:51
THE COURT: You should certainly
send your proposed judgment to me
on or before November 20th. Can
everyone get your proposed final
judgment to me by November 20th?
[Parties answer yes.] 13.RR:77
THE COURT: [Referring to] . . . the
final judgment, the full terms of
which the Court has not yet determined but will after receiving everyone’s proposed final judgment on or
before November 20th, which is
the same deadline for any final
pleadings, arguments, pertaining to
the sanctions or attorneys’ fees issues. Okay. So everything’s got to
be to me on or before the 20th.
13.RR:79-80

App. 62
Plaintiff and her counsel had no choice except to accede
to the tight deadline and try to prepare affidavits,
briefing, and proposed judgment language to protect
Plaintiff ’s property and other interests. But after only
72 hours had passed, Judge Crump entered into the
record a pair of final orders that transferred Plaintiff ’s
real property to defendants and cancelled the protection from sale provided by a lis pendens notice. Judge
Crump’s orders were then entered into property records almost immediately, and no party had served or
filed any briefing, evidence, affidavits, or proposed
judgments. Indeed the deadline was still a week away.
Judge Crump knowingly and intentionally ignored all
statutory due process protections for cancellation of a
lis pendens notice—the 21-day notice, hearing, and
written motion. All subsequent filings by Plaintiff
seeking to remedy these rulings were ignored by Judge
Crump. Plaintiff ’s proper motions seeking rulings
from Judge Crump were ignored, as were written objections, required to preserve error. On the appeal of all
of the foregoing issues, Defendants Puryear, Goodwin,
and Pemberton refused to consider them; alternatively
they found everything “waived,” or knowingly, falsely
reported that Serafine or her counsel had failed to attempt to present evidence or failed to make a bill of
exceptions. The actual substance any particular order
or ruling is immaterial here. Rather, as matter of due
process and fundamental fairness, Plaintiff was entitled to rely on court-announced deadlines (as well as
statutory notice and hearing provisions) in order to
present evidence, and was entitled to a bona fide appeal of their denial. All Defendants knowingly and

App. 63
intentionally, and with concerted effort, disregarded
due process.
1.

58.

As an example of only one of Plaintiff ’s subsequent filings seeking undo one of the
deprivations of due process, Plaintiff filed a
motion to vacate the cancellation—without
the statutory 21-day notice, motion, and
hearing—of the lis pendens notice. Judge
Crump announced a briefing deadline for
defendants’ response, triggering another
deadline for Plaintiff to reply. This caused
Plaintiff and her counsel to avoid seeking
mandamus. Within 48 hours of the announced deadline, however, Judge Crump
entered judgment. Incorporated into the
judgment was the un-noticed, un-heard, and
un-moved cancellation of the lis pendens
notice. Judge Crump ignored Plaintiff ’s subsequent motion to reconsider. On appeal, Defendants Puryear, Goodwin, and Pemberton
effectively reported facts that did not occur,
then declared all of the statutory due process
protections—the 21-day notice, motion, and
hearing—were “waived.”

Near the end of trial Defendant Crump induced
Plaintiff and her counsel to agree to submitting
the undetermined boundary question to Defendant Crump, by promising there would be a hearing on the matter. In reality, Defendant Crump
did not hold a hearing within any meaning of that
word. At the start of the only post-trial hearing
that did occur—noticed only for defendants’ statutory attorneys fees requests—Judge Crump announced she had already decided the boundary

App. 64
anyway. There had been no motion, no briefing,
no argument, no claim, and no pleading by Plaintiff ’s opponents for any particular boundary. As a
matter of due process, if Plaintiff had wanted to
dispute the boundary that Judge Crump had
drawn in favor of the other parties, it would be
impossible for Plaintiff to do so, because there
was no claim to any boundary in any pleading or
motion at any time. Judge Crump at all times
knew, understood, and facilitated this. Defendants Puryear, Goodwin, and Pemberton denied
any appeal of the issue.
59.

During trial Defendant Judge Crump induced
Plaintiff ’s counsel to believe he would be allowed
to call Plaintiff ’s testimony for rebuttal. He reserved time for it. Instead, Defendant Crump reneged, and summarily denied rebuttal entirely.
Plaintiff ’s counsel made an offer of proof, obtained a ruling that rebuttal was denied, 12.RR:32,
and later filed a formal bill of exceptions (essentially an alternative offer of proof ). All post-trial
motions seeking remedy were ignored. Defendants Puryear, Goodwin, and Pemberton, based
on their own falsely reported facts, found
“waiver.” See 12.RR:32-33; CRSuppV:448; other
record evidence; all documents and transcripts
related for Plaintiff ’s bill of exceptions.
1.

Plaintiff and her counsel filed a formal bill of
exceptions on the denial of rebuttal, a proceeding that specially preserves error and
evidence. The statute requires a hearing.
Judge Crump emailed the parties to obtain
potential hearing dates. Almost immediately,

App. 65
Judge Crump then entered an order denying
the bill of exceptions in its entirety.
Deprivation of rights in collaboration with other
district judges
60.

Based on Judge Crump’s statements on the record, 6.RR:13, and the issuing of coordinated orders among them, other Travis County judges—
Judge Amy Clark Meachum, Judge Tim Sulak,
and also, but only on information and belief,
Judge Darlene Byrne—aided and assisted Judge
Crump, acting, in effect, as a panel rather than as
an independent courts. Judge Darlene Byrne was
significantly conflicted. On information and belief, that conflict influenced Judges Crump,
Meachum, and Sulak.

61.

On information and belief, the judges and favored
defendants were assisted by court administrator
Warren Vavra, who ensured assignment of matters to only these same judges, despite the “central docket” procedure that normally controls.

62.

The precise details of various motivations for
denials of due process are irrelevant. The Fourteenth Amendment and Section 1983 protect
constitutional due process rights, regardless of
any explanation that Plaintiff might prove. It is
enough to show, regardless of motivations, that
Plaintiff was deprived of discovery, the opportunity to present evidence, a neutral arbiter, and
a record of proceedings, in order to be entitled to
prospective relief to prevent re-occurrence.

App. 66
63.

A hearing transcript taken down by the court reporter for Judge Byrne disappeared for two years,
although in reality it existed at that time and
exists today. This eliminated evidence of Judge
Byrne’s conflict and collaboration with defendants in the state case and Plaintiff ’s ability to
try to remedy it. The tape recording of the hearing also disappeared for the same period.

64.

In the instant case, the court reporter has evaded
all contact for many months and later evaded the
process server for Plaintiff ’s subpoenaing of her
deposition. The deposition did not take place.
V.

Prayer

Plaintiff prays that the Court will:
1.

Assume jurisdiction over this matter;

2. Render such findings of fact and conclusions of law
as to establish the need to award Plaintiff certain declaratory and injunctive relief as is necessary to secure
for Plaintiff, and others similarly situated, those rights
under the Fourteenth Amendment of the U.S. Constitution—including findings that Defendants executed a
policy, practice, or custom of denying procedural due
process, or affirming denial of due process, such as
denying meaningful notice, hearing, and appeal; entering into the record judicial documents containing false
statements of fact and bad faith rulings, made intentionally; tampering with the record; engaging in ex
parte communication; and other conduct according to
proof.

App. 67
3. Issue accordingly a prospective declaratory decree
that sets forth the due process rights to which Plaintiff
is entitled in future proceedings. Plaintiff, for example,
is entitled to be free of ex parte communication and ex
parte proceedings; and is entitled to notice and hearings, to impartial arbiters, to present evidence, to obtain rulings, and to an accurate and complete record
at her own expense. Plaintiff does not seek to enlarge
her rights beyond those accorded by law to any other
citizen, but seeks only to have declared those rights
to which she is entitled and was, according to proof,
denied.
4. Determine that such declaratory relief was previously unavailable to Plaintiff, and that therefore injunctive relief is warranted.
5. Alternatively, determine that Defendants’ judicial
oath, as a matter of law, constitutes a declaratory decree to which Defendants consented, and that Defendants’ violation of that oath entitles Plaintiff to
injunctive relief.
6. Issue an injunction consistent with the declaratory
decree.
7. Grant Plaintiff her costs and attorneys’ fees to the
extent allowed by law; and
8. Grant such other and further relief as the Court
determines is just and proper.

App. 68
Respectfully submitted,
/s/ M.L. Serafine
Mary Louise Serafine, State Bar No. 24048301
Mary Louise Serafine, Attorney & Counselor at Law
P.O. Box 4342, Austin, Texas 78765
Tel: 512-220-5452
Email: mlserafine@gmail.com
Attorney for Plaintiff
Certificate of Service
Pursuant to Federal Rule of Civil Procedure 5(a) and
(b) and Local Rule CV-5, the foregoing document has
been filed and simultaneously served through the
Court’s electronic filing system on the counsel below on
this the 28th day of August, 2018.
Anthony J. Nelson, Esq. and Leslie W. Dippel, Esq.
Office of David A. Escamilla
Travis County Attorney
P. O. Box 1748, Austin, Texas 78767
(512) 854-9415, (512) 854-4808 FAX
Attorneys for Defendant the Hon. Karin Crump
Demetri Anastasiadis, Assistant Attorney General
Attorney-In-Charge
Law Enforcement Defense Division,
Office of the Attorney General
P.O. Box 12548, Capitol Station, Austin, Texas 78711
(512) 463-2080 / Fax (512) 370-9374
Attorneys for Defendants the Hon. Melissa Goodwin,
the Hon. Bob Pemberton, and Hon. David Puryear.
By: /s/ M.L. Serafine
Mary Louise Serafine
State Bar No. 24048301

